k
■<

k'v-

t

IN THE SUPREME COURT OF THE UNITED STATES

No.
Khue Nguyen, Plaintiff-Petitioner,
vs.
Estate of Thin Thi Ta, Hai Phu Nguyen as heir and husband; Thao Xuan Ta;

CERTIFICATE OF COMPLIANCE WITH WORD-COUND LIMITATIONS

I, Khue Nguyen as petitioner, certify that the Petition for a Writ of Certiorari in the
above-captioned case contained 4128 words, excluding the parts of the petition that
are exempted by Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Khue Nguyen
Execution on: January 7, 2021

4<Hv%

Clear/Reset

WELLS
FARGO

All-purpose Acknowledgment California
A notary public or other officer completing this certificate verifies only the identity
of the individual who signed the document to which this certificate is attached,
and not the truthfulness, accuracy, or validity of that document.
State of California

County of

r)M WlJL

6

On
the officer),

before me, A-nMruJy^

personally appeared

e)' Mo

H

(here insert name and title of

Y-Vo^

who proved to me on the basis of satisfactory evidence to be the
person(s) whose name(s) is/are subscribed to the within instrument
and acknowledged to me that he/she/they executed the same
in his/her/their authorized capacity(ies), and that by his/her/their
signature(s) on the instrument the person(s), or the entity upon
behalf of which the person(s) acted, executed the instrument.
I certify under PENALTY OF PERJURY under the laws of the State
of California that the foregoing paragraph is true and correct.
Notary Seal

WITNESS myttqnd
and official seal.
Signature
For Bank Purposes Only
Description of Attached Document
Type or Title of Document
Document Date

I 7 ^

Number of Pages

Signer(s) Other Than Named Above
Account Number (if applicable)

FO01-000DSG5350CA-01
DSG5350CA/595577 (Rev 04 - 09/20)

1

